                                         UNITED STATES GOVERNMENT
                                              M E M O R A N D U M



   DATE: January 20, 1995

REPLY TO
 ATTN OF: Acting Inspector General

 SUBJECT: Special Review of the Regional Narrowband PCS Auction

      TO: Chairman
          Commissioners
          Managing Director
          Chief, Wireless Telecommunications Bureau



This office has recently completed a special review of the
Commission's auction of Regional Narrowband Personal
Communication Services (PCS) licenses which was conducted
beginning the week of October 26, 1994. I have attached a copy
of our report documenting the results of that review.

Due to the pace with which the Commission is pursuing the
distribution of licenses through auctions, we determined that the
best approach to reviewing the process was through a special
review. A special review is meant to be a quick study of a
process in order to provide a timely report to management.

During this review we examined upfront payment processing, bidder
participation, and long-form application processing. In general,
our review indicates that the auction was conducted in an
efficient and effective manner. The success of the auction
speaks highly of the enthusiasm and professional manner of those
Commission staff who participated in the auction planning and
conduct. However, two areas were identified where improvements
in the auction process can be made. These areas are (1)
reporting of bidder eligibility during the auction and (2)
instructions to winning bidders regarding long-form application
preparation. We discussed both of these issues with
representatives from the Wireless Telecommunications Bureau (WTB)
during the course of our review. In both cases we were informed
that WTB agrees with the auditors and has taken steps to address
the respective conditions. The WTB response is enclosed as an
appendix to the attached report.
This is the second special review report documenting our
examination of the Commission's license auctioning process. Our
first special review report, dated September 22, 1994, addressed
short-form application processing as part of the Nationwide
Narrowband PCS and Interactive Video Data Service (IVDS) license
auctions. The Office of Inspector General intends to review
other aspects of the process in future auctions.




                                   H. Walker Feaster III

Attachment

CC: Special Counsel to the Commission
      For Reinventing Government

   Chief, Office of Plans and Policy
               REPORT ON THE SPECIAL REVIEW OF THE

           REGIONAL NARROWBAND PERSONAL COMMUNICATION

                 SERVICES (PCS) LICENSE AUCTION


                        Table of Contents

                                                            Page

REVIEW OBJECTIVE ............................................   1

REVIEW SCOPE ................................................   1

BACKGROUND ..................................................   1

ISSUE No. 1 - Bidder Eligibility Reporting ..................   3

ISSUE No. 2 - Long-Form Application Instructions ............   5

RESPONSE TO THE DRAFT REPORT ................................   7

APPENDIX - Response to the OIG Draft Report by the
           Deputy Bureau Chief, Wireless
           Telecommunications Bureau ........................   8

ATTACHMENT - Erroneous Example of a Completed Long-Form
              Application from the Bidders Information
             Package
REVIEW OBJECTIVE

The objective of this special review was to evaluate the internal
controls associated with (1) upfront payment calculation and
processing, (2) activity rule enforcement, and (3) FCC Form 401
("long-form application") processing for those businesses
participating in the regional narrowband PCS auctions conducted
in October 1994. To accomplish our objective, we: (1)interviewed
representatives from the auction task force and Wireless
Telecommunications Bureau; (2) reviewed Public Notices, News
Releases, and Reports and Orders associated with the auction; (3)
analyzed round by round auction data; (4) evaluated census data
used to develop upfront payment requirements; and (5) examined
documentation filed by businesses participating in the auction.


REVIEW SCOPE
We have conducted a special review of specific aspects of the
spectrum license auction process. A special review is meant to
be a quick study of a process and, as such, was not conducted in
accordance with all professional auditing standards. A special
review was conducted because we believe that, in this case,
management would benefit from expeditious reporting of those
areas of the auction process where improvement is needed. We
believe that this is particularly important given the pace with
which the Commission is pursuing the distribution of additional
licenses through auction.

The scope of this review was limited to (1) upfront payment
processing, (2) bidder participation, and (3) long form
application processing as part of the regional narrowband PCS
license auction conducted in October 1994.

Review fieldwork was performed within the Wireless
Telecommunications Bureau during October through December 1994.
Primary attention was focused on those representatives
participating on the Commission's auction task force, now
organizationally defined as the Auctions Division of the Wireless
Telecommunications Bureau, and those involved in application
processing.

BACKGROUND
On August 10, 1993, the Omnibus Budget Reconciliation Act of 1993
added section 309(j) to the Communications Act of 1934, as
amended. Section 309(j) gave the Federal Communications
Commission (FCC) express authority to employ competitive bidding
procedures to choose from among mutually exclusive applications
for initial licenses. Under Section 309(j) the Commission must
determine that the use of a system of competitive bidding will
promote:
     othe development and rapid deployment of new technologies,
          products, and services for the benefit of the public,
          including those residing in rural areas, without
          administrative or judicial delays;

     oeconomic opportunity and competition and ensure that new
          and innovative technologies are readily accessible to
          the American people by avoiding excessive concentration
          of licenses and by disseminating licenses among a wide
          variety of applicants, including small businesses,
          rural telephone companies, and businesses owned by
          members of minority groups and women;

     orecovery for the public of a portion of the value of the
          public spectrum made available for commercial use and
          avoidance of unjust enrichment through the methods
          employed to award uses of that resource; and

     oefficient and intensive use of the electromagnetic
          spectrum.

On March 8, 1994, the Commission adopted a Second Report and
Order in the matter of implementation of the competitive bidding
component of Section 309(j). The Commission's purpose in the
Second Report and Order was to "promulgate competitive bidding
rules that, in conjunction with (their) spectrum allocation
rules, promote the public policy objectives set forth in
Congress." The Report and Order addressed rules governing (1)
principles for determining whether licenses may be auctioned, (2)
competitive bidding design, (3) procedural payment and penalty
issues, (4) regulatory safeguards, and (5) treatment of
designated entities. In addition, the Commission reported that
"specific rules within the scope of general rules will be adopted
in a Report and Order for each service subject to competitive
bidding."

On April 20, 1994, the Commission adopted a Third Report and
Order in the matter of implementation of the competitive bidding
component of Section 309(j). The Commission's purpose in the
Third Report and Order was to adopt "service-specific rules for
competitive bidding on licenses to be awarded for Personal
Communications Services in the 900 MHz band ("narrowband PCS")."
 On August 26, 1994 the Commission announced, via Public Notice,
an auction of thirty regional licenses for narrowband PCS to
begin on October 26, 1994. The auction was subsequently held and
the thirty licenses were auctioned for a total winning bid value
of $490,901,787.




                                2
Issue No. 1 - Bidder Eligibility Reporting

The Commission did not publish information on activity rule
waiver use by bidders during the auction. Absence of this
information may have prevented bidders from analyzing competitor
bidding strategies in an accurate and timely fashion. Although
there are no indications that this condition adversely impacted
the regional narrowband PCS license auction results, we believe
that publishing activity rule waiver information would be
consistent with the conclusions the Commission reached in its
Second Report and Order regarding auction design and information
availability during simultaneous multiple round auctions.

In its Second Report and Order, the Commission evaluated
competitive bidding designs intending to select that design(s)
which best fit policy objectives. In the Order, the Commission
adopted simultaneous multiple round auctions as the primary
auction methodology. The Commission concluded that "multiple
round auctions, by providing bidders with information regarding
other bidders' valuations of licenses, generally will yield
higher revenues and more efficient allocations of licenses." In
addition, the Commission concluded that providing bidders with
most information about license values during the course of the
auction will "provide bidders with the most flexibility to pursue
backup strategies." When a bidder is analyzing a competitors
actions during an auction, a significant component of license
valuation in upcoming rounds is indicated by maximum eligibility.
 Maximum eligibility, in turn, is directly affected by activity
rule waiver use as discussed in detail below. Therefore,
information regarding activity rule waiver use is necessary for
an accurate and timely analysis of a competitors valuation of
licenses during the auction.

In its Third Report and Order, adopted April 20, 1994, the
Commission established competitive bidding rules for the auction
of narrowband PCS licenses. As part of these rules, the
Commission promulgated "activity rules" establishing minimum
requirements for bidder activity at each stage ("phase") of the
auction. These requirements are intended to ensure that a
simultaneous auction with simultaneous stopping rules closes
within a reasonable period of time by preventing bidders from
waiting until the end of the auction before participating. The
activity rule governs the maximum eligibility of each bidder
based upon auction participation by reducing eligibility if
participation falls below minimum requirements. Waivers may be
entered by bidders ("proactive waiver") or entered by the
Commission on behalf of a bidder ("automatic waiver"). Bidders
may override the automatic waiver mechanism when they place a bid
below the required participation level, however, the bidders
eligibility will be permanently reduced. During the regional


                                3
narrowband PCS license auction, each bidder was allowed one
waiver from the activity rule during each of the three auction
phases. Participants were informed of activity rule waiver and
eligibility requirements in the bidder information package and in
several Public Notices explaining the auction.

As part of our review, we conducted a detailed analysis of bidder
activity during the auction. The purpose of this effort was to
determine if the Commission was taking appropriate steps to
enforce established activity rules. The analysis was conducted
using publicly available information sources (e.g., public
notices, internet, etc.) and the explanation of activity rule
waivers and eligibility requirements made available to
participants prior to the auction. During the analysis we noted
that although detailed round by round bidding information was
being made available (including information by bidder on high
bids, all bids, and bid withdrawals), information about activity
rule waiver use was not being provided. Without this information
we were, in some cases, unable to accurately calculate maximum
bidder eligibility. Following the auction, auction
representatives were able to provide a detailed spreadsheet
identifying activity rule waiver use by type (proactive or
automatic), bidder and round. We used this information to
complete our analysis of bidder participation.

We discussed our observations regarding activity rule waiver
information release with regional narrowband auction personnel.
During those discussions, we were informed that the automated
system used to track auction activity was not "programmed... to
provide that information as part of the round results data." As
a result, information on activity rule waiver use was not
released to bidders during the auction.

During our discussions, auction personnel indicated that the
Commission intends to make activity rule waiver information
available in future auctions. In fact, during analysis of the
ongoing Major Trading Area Broadband PCS license auction, which
began December 5, 1994, we noted that information about each
bidder's maximum eligibility and remaining waivers is being made
available along with round by round auction results. In our
opinion, release of this information adequately addresses this
issue. We recommend that the Commission continue to release this
information in future simultaneous multiple round auctions.




                                4
Issue No. 2 - Long-Form Application Instructions

Our review indicated some inaccuracies in the instructions
provided regarding FCC Form 401 ("long-form application")
preparation. The long-form application is the vehicle by which
successful bidders apply for a narrowband PCS license. Long-form
applications were required within ten business days after high
bidders are announced by public notice. Following Commission
review of long-form applications and the Petition to Deny
process, the Commission decides if there are any reasons the
license should not be granted; if there are none, the Commission
grants the license. General instructions regarding requirements
for long-form applications were provided in the Public Notice,
dated August 17, 1994, announcing the auction. Detailed
instructions regarding long-form application completion were
provided in the Bidder's Information Package.

As part of our review, we requested that the Narrowband
Commercial Radio Branch of the Wireless Telecommunications Bureau
provide copies of those long-form applications submitted for the
thirty regional narrowband PCS licenses that were auctioned. We
were informed that the application process was being slightly
delayed because several applications were being resubmitted.
Further inquiry revealed that several winning bidders (six
applicants out of a total of nine) submitted an individual long-
form application for multiple licenses. In fact, several
applicants submitted single long-form applications for
frequencies in each of the five markets. Applicants were
notified in writing by the Narrowband Commercial Radio Branch
that "further documentation" was required and that a "complete
application for each market and frequency block" be submitted.
In addition, applicants were reminded that §24.11 of the
Commission's Rules states that "an applicant must file an
application for an initial authorization in each market and
frequency block desired." After applicants had prepared
individual long-form applications for each market and frequency
block and resubmitted those documents, we were able to obtain
copies of all original and resubmitted applications for review.

During our examination of the applications, we reviewed the
instructions provided to the applicants in the Public Notice
announcing the auction and in the Bidder's Information Package
providing detailed instructions on long-form application
preparation. We noted during this review that no mention is made
in these sources of §24.11 of the Commission Rules, or it's
requirement for individual applications for "each market and
frequency block." In fact, the "sample" long-form application
provided in the Bidder's Information Package shows multiple
markets and frequency blocks on the same long-form application
(please refer to the Attachment).


                                5
We discussed this condition with a representative from the
Narrowband Commercial Radio Branch and were informed that steps
are being taken to alleviate this problem in future auctions.
For example, a new bidder information package has been developed
which clarifies the requirement for individual applications. In
addition, a new form (Form 600) has been developed and includes
filing instructions which clearly indicate this requirement. We
believe that these steps will adequately address this problem in
future auctions.




                                6
RESPONSE TO THE DRAFT REPORT

On January 19, 1995, the OIG received a response to the draft
report by the Deputy Chief, Wireless Telecommunications Bureau
(See Appendix). In his response, the Deputy Chief indicated his
agreement with the issues raised in this report. Furthermore, he
stated that specific corrective action has, and will, be taken to
fully address the issues raised by the OIG.




                                7
▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀
═════════════════════════════════════════════════════════════════


                FEDERAL COMMUNICATIONS COMMISSION




                   OFFICE OF INSPECTOR GENERAL



                         SPECIAL REVIEW REPORT
                                 95-A-1



                   REPORT ON THE SPECIAL REVIEW
               OF THE REGIONAL NARROWBAND PERSONAL
          COMMUNICATIONS SERVICES (PCS) LICENSE AUCTION



                           January 20, 1995




___________________
___________________         AUDITOR
   DIRECTOR OF AUDITS



                        ________________________
                        ACTING INSPECTOR GENERAL
▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄▄
═════════════════════════════════════════════════════════════════




═════════════════════════════════════════════════════════════════
▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀▀
